   

 

 

THE STATE

of Department of Law
ALASKA CIVIL DIVISION

GOVERNOR MICHAEL J. DUNLEAVY
1031 West 4th Avenue. Suite 200

Anchorage, Alaska 99501

August 13, 2019 Main: 907.269.5100
Fax: 907.276.3697

Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543-0001

Re: David Thompson, et al. v. Heather Hebdon, Executive Director of the
Alaska Public Offices Commission , et al.; No. 19-122

Dear Mr. Harris:

The petition for a writ of certiorari in this matter was filed on July 22, 2019, and
placed on the docket on July 25. The response is due on August 26, 2019.

We respectfully request, under Rule 30.4 of the rules of this Court, an extension of
time up to and including September 25, 2019, to prepare a response. The petition presents
complex First Amendment issues. The complexity of the issues and the length and detail
of the petition lead the respondents to respectfully request additional time to complete the
brief in opposition, given the press of other business. The respondents’ counsel is a
government attorney whose office cannot decline work and whose caseload includes
more time-sensitive matters. In addition, the respondents have consented to the filing of a
brief amicus curaie supporting the petition, and unless an extension is granted, the
respondents may not have an opportunity to address the contents of the amicus brief.

Respectfully submitted,

TREGARRICK R. TAYLOR

DEPUTY ATTORNEY GENERAL

By: a SQ
Laura Fox
Senior Assistant Attorney General
Alaska Department of Law

(907) 269-5275
laura.fox@alaska.gov
Counsel of Record for Respondents
Honorable Scott S. Harris August 13, 2019
Request for Extension Page 2 of 2

CERTIFICATE OF SERVICE
I hereby certify that a copy of the foregoing is being mailed to:
Paul D. Clement
Kirkland & Ellis LLP

1301 Pennsylvania Avenue, NW
Washington, D.C. 20004

Ago Craee tsk
Virgigia Bozeman Date

Law Office Assistant I]
